CERTIFICATE OF SERVICE
NO. 20-1761
Secretary Pennsylvania Department of Labor and Industry
Petitioner,
v.
Delaware River Joint Toll Bridge Commission
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
DELAWARE RIVER JOINT TOLL BRIDGE COMMISSION BRIEF IN OPPOSITION, by mailing three (3) true
and correct copies of the same by Fedex 2-Day, prepaid for deliveryto the following address.
John Bartley DeLone
Attorney General's Office
Pennsylvania Office of Attorney General Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral.gov
Counsel for Secretary Pennsylvania
Department of Labor and Industry

Lucas DeDeus

July 16, 2021
SCP Tracking: Connell-One Centennial Square-Cover Orange

